Office of Audits and Evaluations
Report No. EVAL-14-003


The FDIC’s Personnel Security and
Suitability Program




                                   August 2014
                                     Executive Summary

                                     The FDIC’s Personnel Security and
                                     Suitability Program
                                                                                    Report No. EVAL-14-003
                                                                                                August 2014
Why We Did The Evaluation

The FDIC’s Personnel Security and Suitability Program (PSSP) is designed to ensure that the Corporation
employs and retains only those persons who meet all federal requirements for suitability (i.e., character,
reputation, honesty, integrity, trustworthiness) and whose employment or conduct would not jeopardize
the accomplishment of the Corporation’s duties or responsibilities. A high-quality program is essential to
minimizing the risks of unauthorized disclosures of sensitive information and to helping ensure that
information about individuals with criminal activity or other questionable behavior is identified and
assessed as part of the process for granting or retaining clearances. Further, potential missed red flags in
the backgrounds of individuals who have recently committed serious crimes have brought renewed public
and Congressional attention to the criticality and quality of background checks.

An Office of Personnel Management Federal Investigative Services (OPM-FIS) review of the FDIC’s
personnel security and suitability program completed in April 2013, primarily covering calendar year
2011, made 11 recommendations for the FDIC to improve its program. In addition, an OIG contract audit
completed in 2012 and an OIG audit of controls related to safeguarding sensitive information started in
2013 identified deficiencies in the performance of background investigations for contractors and
employees, respectively. In 2013, the FDIC implemented all 11 OPM-FIS recommendations and
corrected the deficiencies identified in both OIG audits.

Our objective was to determine whether the FDIC is carrying out its PSSP efficiently and effectively. We
evaluated (1) FDIC management’s overall administration of the program, including the extent to which
applicable policies and procedures are in place and being followed; (2) oversight and administration of
the contract supporting the program; and (3) the nature, extent, allowability, and reasonableness of costs
incurred under the contract supporting the program. We engaged BDO USA, LLP to complete tasks
detailed in an evaluation program that we developed and approved, provide technical guidance and
analytical assistance, and assist in our reporting of evaluation results. Our review covered the period from
January 2011 through July 2013.

Background

The authority for determining suitability for federal employment in the competitive service is vested in
5 U.S.C. 3301, 3302, and 7301; Executive Order (E.O.) 10577, as amended by E.O. 12107; and 5 C.F.R.
Parts 5, 731, and 736. Applicants, appointees, and employees are also subject to mandatory bars outlined
in 12 C.F.R. Part 336, Minimum Standards of Fitness for Employment with the Federal Deposit Insurance
Corporation. The FDIC primarily ensures the suitability of its employees and contractors and that the
minimum standards of fitness and employment are met through the background investigations process.

The FDIC’s Security and Emergency Preparedness Section (SEPS) within the Corporate Services Branch
(CSB) in the Division of Administration (DOA) receives, assesses, processes, and adjudicates personnel
security and suitability cases for all FDIC employees, contractors, and subcontractors. The FDIC relies
heavily on a contractor for performing background investigation functions and providing personnel
suitability support. The Corporation uses the OPM-FIS to conduct background investigations based on
the risk level designation for the position the FDIC is filling.




                                                     i
                                    The FDIC’s Personnel Security and
    Executive Summary               Suitability Program
                                                                                   Report No. EVAL-14-003
                                                                                               August 2014

Evaluation Results

During our evaluation, the PSSP was in a state of transition and various aspects of the program were
evolving and being improved. In furtherance of those efforts, the FDIC could strengthen controls in the
following areas.

Overall Program Administration. Most preliminary clearance and adjudication determinations we
reviewed were completed appropriately. However, we questioned a number of decisions and found that
some decisions lacked support; not all background investigations performed were commensurate with a
position’s risk level designation; some background investigations were not timely; and many
investigation case files were missing key documentation. We concluded that our test results could be
attributed to weaknesses in policies and procedures, and management resource issues such as continuity
and span of control. SEPS indicated that it made a number of program changes following our testing
period and realized meaningful program improvements in late 2013 and early 2014, such as:

    Eliminating case backlogs, thereby reducing processing times, both on the front-end for background
     investigation submissions to OPM and the back-end for completed case adjudications;
    Implementing the use of OPM’s e-QIP system for electronic submission of background investigation
     questionnaires for all employees and contractors to reduce case review time and processing errors;
    Reviewing all FDIC position descriptions to ensure they had appropriate position sensitivity
     determinations;
    Instituting a periodic reinvestigation program for incumbent federal staff in moderate risk positions;
    Increasing security support contract staffing levels with experienced adjudicators and security
     assistants, a more experienced senior project manager, and other positions; and
    Reorganizing SEPS and hiring an experienced Security Operations Unit manager to provide day-to-
     day supervision and management of the security support contract and federal staff.

SEPS also began an effort to digitize background investigation files and automate the PSSP process
through an enterprise content management platform, known as the Personnel Security Records
(PERSEREC) project. This effort is intended to improve records management, program efficiency, and
performance reporting.

Contract Oversight. Most contractor charges that we reviewed were supportable and contract
modifications were appropriately executed. However, we identified a few exceptions related to contractor
overtime hours, labor category mix, the timely signature of modifications, and written approvals for key
personnel changes. Further, while we determined that most contractor staff met minimum qualifications,
we identified two staff that did not. Finally, we concluded that contract oversight could be strengthened
by SEPS establishing better criteria for measuring contractor production and performance. SEPS
developed weekly performance metrics, including contractor metrics, in May 2013. Implementation of
the PERSEREC project should help to improve the reliability of underlying performance metric data and
automate and enhance performance reporting.

Records Management. Records management controls over PSSP files, which include extensive amounts
of sensitive personally identifiable information (PII), needed improvement. These weaknesses create
inefficiency and present risks to the FDIC, including the potential for unauthorized release and access to
large volumes of PII, and the PSSP team’s inability to respond to inquiries or readily locate


                                                    ii
                                   The FDIC’s Personnel Security and
  Executive Summary                Suitability Program
                                                                                 Report No. EVAL-14-003
                                                                                             August 2014

documentation supporting background investigation determinations. The transition to PERSEREC should
mitigate these weaknesses and inefficiencies.

Information Systems. Data we reviewed in the DOA systems used to capture preliminary clearance data
and provide management reporting—the Background Investigation Review Tracking (BIRT) System and
the Corporate Human Resources Information System (CHRIS)—were not reliable and, in some cases,
redundant. SEPS officials indicated that once PERSEREC is fully operational, BIRT will be retired.
SEPS also expects to implement a business process management system in 2015 that will integrate with
PERSEREC, CHRIS, and OPM systems to automatically update background investigation case
information and track the status of cases. SEPS will need to ensure that it builds adequate workflow
process controls into the automation effort to address the weaknesses noted in this report.

As we completed our testing, it was too early to fully assess the effectiveness of SEPS’ operational
improvements, hiring of new management and key staff, and ongoing and planned automation efforts.
Nevertheless, we considered those efforts in forming our recommendations.

Recommendations

The report contains 10 recommendations intended to complement ongoing PSSP program improvements
and to strengthen and sustain associated policies, procedures, and controls.

The Director, DOA, provided a written response dated July 24, 2014, to a draft of this report. In the
response, the Director, DOA, concurred with the report’s 10 recommendations. The response described
improvements to the PSSP that were occurring during and after the scope of this review and outlined
corrective actions that were responsive to the recommendations. DOA has already taken steps that we
confirmed were sufficient to close three of the recommendations.




                                                   iii
                                   Contents

                                                                          Page
Background                                                                  2

Evaluation Results                                                          4

   Overall Administration of the PSSP                                       4
       Preliminary Clearance and Adjudication Determinations                4
       Extent to Which Background Investigations Were Commensurate with
           Risk Level Designations                                          6
       Timeliness of Background Investigation Processes                     7
       Documentation Maintained in Investigation Case Files                10
       PSSP Policies and Procedures                                        11
       Management Oversight of the PSSP                                    11
       Program Changes and Improvements                                    13
       Recommendations                                                     14

   Contractor Performance and Oversight                                    14
       Recommendations                                                     17

   Records Management Controls                                             18
       Recommendations                                                     20

   Information Systems Reliability and Controls                            20
        Recommendation                                                     22

   Digitization and Automation Efforts                                     23
        Recommendations                                                    24

Corporation Comments and OIG Evaluation                                    24


Appendices
  1. Objective, Scope, and Methodology                                     25
  2. Sampling Methodology                                                  28
  3. Questioned or Unsupported Preliminary Clearance or Adjudication
      Decisions                                                            31
  4. Glossary                                                              33
  5. Acronyms and Abbreviations                                            37
  6. Corporation Comments                                                  38
  7. Summary of the Corporation’s Corrective Actions                       46
                                   Contents

                                                                         Page
Tables
   1.  Background Investigations Performed Below PSA Form Risk Rating      7
   2.  PSA Forms Not Included in File                                      7
   3.  Investigations Not Submitted to OPM Within 14 Days                  8
   4.  Forms 79A Not Sent to OPM Within 90 Days                            9
   5.  National Security Cases Not Adjudicated Within 20 Days              9
   6.  Contractor Preliminary Approvals Not Completed Within 5 Days        9
   7.  Files With Incomplete Summary Sheet Documentation                  10
   8.  Files Missing Documents                                            11
   9.  BIRT Records with Missing or Erroneous Data                        21
   10. CHRIS Records with Missing or Erroneous Data                       21
   11. Background Investigations Processed, January 1, 2011 – July 31,    26
       2013
   12. Sampled Files by Type of Investigation                             29
   13. Sampled Files by Adjudication Result                               29
   14. Sampled Files by OPM Issue Indicator                               29


Figures
   1. SEPS New Organizational Structure                                   13
   2. PSSP Support Contractor Staff Organizational Structure              15
Federal Deposit Insurance Corporation                                                       Office of Audits and Evaluations
3501 Fairfax Drive, Arlington, VA 22226                                                          Office of Inspector General



DATE:                                     August 7, 2014

MEMORANDUM TO:                            Arleas Upton Kea
                                          Director, Division of Administration


                                          /signed/
FROM:                                     Stephen M. Beard
                                          Deputy Inspector General for Audits and Evaluations

SUBJECT:                                  The FDIC’s Personnel Security and Suitability Program
                                          (Report No. EVAL-14-003)


This report presents the results of our subject evaluation. The FDIC’s Personnel Security and
Suitability Program1 (PSSP) is designed to ensure that the Corporation employs and retains only
those persons who meet all federal requirements for suitability (i.e., character, reputation,
honesty, integrity, trustworthiness) and whose employment or conduct would not jeopardize the
accomplishment of the Corporation’s duties or responsibilities. A high-quality program is
essential to minimizing the risks of unauthorized disclosures of sensitive information and to
helping ensure that information about individuals with criminal activity or other questionable
behavior is identified and assessed as part of the process for granting or retaining clearances.


Objective and Approach
Our objective was to determine whether the FDIC is carrying out its PSSP efficiently and
effectively. To fulfill this objective, we evaluated (1) FDIC management’s overall
administration of the program, including the extent to which applicable policies and procedures
are in place and being followed; (2) oversight and administration of the contract supporting the
program; and (3) the nature, extent, allowability, and reasonableness of costs incurred under the
contract supporting the program.

We conducted this evaluation in accordance with the Council of the Inspectors General on
Integrity and Efficiency’s Quality Standards for Inspection and Evaluation. We engaged BDO
USA, LLP to support the Office of Inspector General (OIG) by completing tasks detailed in an
OIG-developed and approved evaluation program, providing technical guidance and analytical
assistance throughout the assignment, and assisting the OIG in reporting the evaluation results.

To evaluate the FDIC’s overall administration of the program, we first gained an understanding
of program requirements by reviewing applicable laws and regulations. We then reviewed

1
    Terms that are underlined when first used in the report are defined in Appendix 4, Glossary.
relevant FDIC policies and procedures, interviewed program officials, and observed how FDIC
processed background investigations and handled background investigation files. Next we
reviewed a non-statistical sample of 108 background investigation files undergoing preliminary
clearance or adjudication between January 1, 2011 and July 31, 2013.2 In selecting our sample,
we stratified the population to select a representative sample based on type of employment,
investigation type, adjudication determination, and Office of Personnel Management (OPM) risk
designation. We assessed program administration through a review of file documentation,
approvals, and adjudication decisions for the 108 background investigation files sampled.

We assessed contractor administration and oversight by reviewing the contractor’s day-to-day
operations and deliverables, as well as the roles of Security and Emergency Preparedness Section
(SEPS) employees and the PSSP support contractor staff (collectively the PSSP Team). We
assessed contractor costs by reviewing contractor invoices for reasonableness and accuracy.
Appendix 1 provides additional details on our objective, scope, and methodology and
Appendix 2 discusses the sampling methodology used for this evaluation.


Background
The authority for determining suitability for federal employment in the competitive service is
vested in 5 United States Code (U.S.C.) 3301, 3302, and 7301; Executive Order (E.O.) 10577, as
amended by E.O. 12107; and 5 Code of Federal Regulation (C.F.R.) Parts 5, 731, and 736.
Applicants, appointees, and employees are also subject to mandatory bars outlined in 12 C.F.R.
Part 336, Minimum Standards of Fitness for Employment with the Federal Deposit Insurance
Corporation, which prohibits any person from becoming employed or providing service to, or on
behalf of, the FDIC who has:

          been convicted of any felony;
          been removed from or prohibited from participating in the affairs of any insured
           depository institution pursuant to any final enforcement action by any appropriate Federal
           banking agency;
          demonstrated a pattern or practice of defalcation regarding obligations to insured
           depository institutions; or
          caused a substantial loss, in an amount in excess of $50,000, to federal deposit insurance
           funds.

FDIC Circular 2120.1, Personnel Suitability Program, establishes the responsibilities, policy
requirements, and procedures for the Corporation's Personnel Suitability Program. The
provisions of this circular apply to all FDIC employees, appointees, and applicants for
employment. Requirements related to FDIC contractors and subcontractors may be found in
FDIC Circular 1610.2, Security Policy and Procedures for FDIC Contractors, while those
related to FDIC national security positions may be found in FDIC Circular 1600.3, National
Security Program.

2
    The results of a non-statistical sample cannot be projected to the intended population.



                                                             2
The FDIC primarily ensures the suitability of its employees and contractors and that the
minimum standards of fitness for employment are met through the background investigations
process. This process generally includes a risk designation, application submission,
investigation, and adjudication. Specifically, division and office directors complete risk
designations for positions and ensure that the designations accurately reflect the risk posed to the
Corporation. These designations include consideration of the extent to which the position
requires access to sensitive data. After an individual has been selected for a position that
requires a personnel security clearance and the individual submits an application for a clearance,
a background investigation is conducted commensurate with the risk designation. Adjudicators
use the information from these investigations to determine whether an applicant is eligible for a
clearance.

The FDIC’s SEPS within the Corporate Services Branch (CSB) in the Division of
Administration (DOA) receives, assesses, processes, and adjudicates personnel security and
suitability cases for all FDIC employees, contractors, and subcontractors. The FDIC uses the
Office of Personnel Management Federal Investigative Services (OPM-FIS) to conduct
background investigations. As detailed in Appendix 1, Objective, Scope, and Methodology,
PSSP processed 6,907 background investigations for FDIC employees and contractors from
January 1, 2011 through July 31, 2013, the period covered by our review.

The OIG has not reviewed the PSSP since 2001. However, an OIG contract audit completed in
20123 and an OIG audit of controls related to safeguarding sensitive information started in 20134
identified deficiencies in the performance of background investigations for contractors and
employees, respectively. The FDIC implemented actions to address the deficiencies identified in
both OIG audits.

OPM-FIS reviewed the FDIC’s PSSP, primarily covering calendar year 2011. OPM-FIS’s April
2013 report made 11 recommendations for the FDIC to improve the PSSP. The OPM-FIS
program evaluation confirmed that the FDIC was validating the need for an investigation through
OPM’s Central Verification System (CVS).5 However, the review found that the FDIC needed
to improve, and made recommendations for:

       Calculating accurate annual investigation projections,
       Using the Electronic Questionnaires for Investigations Processing (e-QIP) system,
       Reporting adjudication determinations to OPM,
       Making timely adjudication decisions,

3
  FDIC OIG Report No. AUD-12-010, Controls Related to the FDIC’s Contract with KeyCorp Real Estate Capital
Markets, Inc., dated July 3, 2012.
4
  FDIC OIG Report No. AUD-14-008, The FDIC’s Controls for Safeguarding Sensitive Information in Resolution
Plans Submitted Under the Dodd-Frank Act, dated July 3, 2014.
5
  This is a suitability and security automation performance goal that OPM monitors and reports to the Performance
Accountability Council established by E.O. 13467, dated June 30, 2008, Reforming Processes Related to Suitability
for Government Employment, Fitness for Contractor Employees, and Eligibility for Access to Classified National
Security Information.



                                                        3
      Sharing CVS data monthly with OPM,
      Appropriately designating position risk and sensitivity, and
      Requesting correct investigations and reinvestigations.

In 2013 the FDIC took action to address each of OPM’s recommendations.


Evaluation Results
During our evaluation, the PSSP was in a state of transition and various aspects of the program
were evolving and being improved. In furtherance of those efforts, the FDIC could strengthen
controls in the following areas:

      Overall Program Administration
      Contract Oversight
      Records Management
      Information Systems

To that end, we are making 10 recommendations to enhance the FDIC’s PSSP.

Our testing covered the period January 1, 2011 through July 31, 2013. As a result, it was too
early for us to evaluate the effectiveness of certain operational improvements and the hiring of
new management and key staff aimed at strengthening the PSSP. Nevertheless, we did consider
those efforts in forming our recommendations. In that regard, during our evaluation, SEPS
began an effort to digitize background investigation files and automate the PSSP process through
an enterprise content management platform. This initiative is intended to improve records
management and operational efficiency. SEPS has also indicated it is being mindful of building
adequate workflow process controls into the automation effort to address issues noted in this
report.


Overall Administration of the PSSP
While we concluded that most preliminary clearance and adjudication determinations were
completed appropriately, we questioned a number of decisions and found some decisions lacked
support, not all background investigations performed were commensurate with a position’s risk
level designation, some background investigations were not timely, and many investigation case
files were missing key documentation. SEPS indicated that, following our testing period,
performance in some of these areas improved significantly.

Preliminary Clearance and Adjudication Determinations

We concluded that most preliminary clearance and adjudication decisions were consistent with
federal and FDIC suitability requirements based on information contained in investigation case
files. Still, we identified eight files (7 percent) where we questioned preliminary clearance or
adjudication determinations or found that decisions lacked support. Further, 52 percent of the


                                                4
files we tested did not contain key documents used to support preliminary clearance or
adjudication decisions, or both.

The PSSP review has two key decision milestones: preliminary clearance and adjudication. The
PSSP team conducts the preliminary clearance assessment to determine compliance with
FDIC-specific suitability criteria, including criminal and financial history. The Preliminary
Background Checklist should document and support preliminary clearance decisions and
approvals. Once an applicant is approved through the preliminary clearance process, the
applicant is eligible to begin work for the FDIC.

Applicants that are preliminarily cleared will then undergo an OPM investigation based on the
risk designation for the position. OPM returns its investigation to the PSSP team for final
adjudication. The adjudication decision, FDIC approval, and related support are documented on
the Personnel Investigation Summary. If an applicant has received a previous favorable
adjudication that falls within acceptable timing and risk parameters, then the FDIC may rely
upon the prior investigation and not require a new investigation. This process is known as
reciprocity.

We tested our sample of 108 files to assess whether preliminary clearance and adjudication
decisions were consistent with federal and FDIC suitability requirements based on information
available in the case files. Our testing found eight files (7 percent) where we questioned the
preliminary clearance or adjudication decisions or found such decisions lacked support, as
follows.

        In two cases, we concluded that PSSP’s reliance on a prior background investigation
         (reciprocity) was incorrect,
        In two cases, we concluded that PSSP’s decision to preliminarily clear two staff was
         based on incomplete or incorrect information, and
        In four cases, the background investigation files did not include sufficient support for
         reciprocity, preliminary clearance, or adjudication decisions.

We provided the SEPS Assistant Director with additional details for each of the eight cases,
which are summarized in Appendix 3. He concurred with our conclusions and acknowledged
that the FDIC should establish a consistent practice on how it should handle individuals who
experienced probation before judgment based on one of the cases we identified. None of the
individuals associated with these cases remains employed by, or under contract with, the FDIC.

Legal Division Review. PSSP refers files with potential suitability issues to the FDIC’s Legal
Division for additional review.6 Through our review of files, we identified 18 with potential
suitability issues and tested them to ensure they were sent to the Legal Division for review and
that the Legal Division’s decision was sufficiently documented. Of the 18 files tested, 3 files (17
percent) were not sent to the Legal Division, and 2 files (11 percent) did not clearly document

6
  Suitability issues could involve many situations, since each applicant situation is unique. Among other things,
suitability issues could involve financial matters, such as bankruptcy; criminal records; or lack of integrity, such as
lying on an application or not disclosing complete information.



                                                           5
the Legal Division’s decision. The PSSP team explained that there is not a formal policy or
consistent practice regarding when files should be sent to the Legal Division for review. Some
SEPS employees told us they make that determination on a case-by-case basis, while others
suggested that all files involving bankruptcies and felonies should be sent to the Legal Division.
We concluded that SEPS should clarify its policies regarding specifically when files should be
sent to the Legal Division for review.

Documentation. We tested all 108 files for key documents and approvals related to preliminary
clearance and adjudication. This testing included reviews of the Preliminary Background
Checklist and Personnel Investigation Summary, which are the key documents for preliminary
clearance and final adjudication decisions, respectively. Of the 102 files7 applicable in the
sample, 55 (54 percent) were missing the Preliminary Background Checklist for preliminary
clearance. Although the checklist was missing, we determined that these 55 files, in substance,
were preliminarily cleared appropriately. Of the 84 files in our sample that reflected screening
work through adjudication, 4 files (5 percent) were missing the Personnel Investigation
Summary for adjudication or did not have the appropriate FDIC approval. We concluded,
however, that these four files were adjudicated appropriately. By not having the necessary
assessment forms included in the file and appropriately approved, the FDIC cannot readily
support its preliminary clearance and adjudication decisions.

Extent to Which Background Investigations Were Commensurate with Risk Level
Designations

We tested all 108 files to ensure that the type of background investigation performed matched
the risk level on the Personnel Security Action (PSA) form completed by the applicant’s hiring
manager. One of the key purposes of the PSA form is to identify the risk sensitivity of the
applicant’s position within FDIC so the PSSP team can complete the appropriate investigation.
The hiring manager completes the PSA form for all new employees and contractors. The
position risk is assessed at high, medium, or low as determined by the position's potential for
adverse impact to the efficiency or integrity of the service, based on OPM’s Position Designation
System.8

Performing the appropriate level of background investigation on employees and contractors is
critical to ensure that the FDIC is in compliance with its own policies and OPM requirements.
Typically, lower level reviews address shorter periods of the applicant’s background.
Derogatory information from earlier periods could potentially be missed in lower level
investigations, which puts the FDIC at risk to favorably adjudicate an applicant with potential
suitability issues.

Of the 108 files we reviewed, 23 files (21 percent) indicated the level of background
investigation conducted was lower than the required investigation type based on the risk level
designated on the PSA form. Additionally, 44 files (41 percent) did not have the PSA form in


7
    This was not applicable to all 108 files because reinvestigations do not go through preliminary clearance reviews.
8
    FDIC Circulars also refer to this as the Risk Designation System.



                                                            6
the file, so we were unable to verify that the FDIC had conducted the appropriate level of
investigation.

Table 1: Background Investigations Performed Below PSA Form Risk Rating
                                 Files                                       Exceptions by Year
                Tested      Exceptions       Percentage         2011           2012      Through July 2013
Contractor        58            15              26%              6%            33%              35%
Employee          50            8               16%             25%            14%              0%

Total             108            23              21%             16%            24%                  23%
Source: OIG analysis of background investigation files.

Table 2: PSA Forms Not Included in File
                                 Files                                       Exceptions by Year
               Tested      Exceptions        Percentage          2011         2012      Through July 2013
Contractor       58            17               29%              65%           13%              18%
Employee         50            27               54%              55%           57%              44%

Total            108            44               41%             59%            33%                  27%
Source: OIG analysis of background investigation files.

We found similar issues in our 2012 audit of the Controls Related to the FDIC’s Contract with
KeyCorp Real Estate Capital Markets, Inc. The audit found that, as of May 2012, the contract
risk level designation was “high,” but none of the background investigations for a sample of
contractor personnel were conducted at a commensurate level. During our current evaluation,
10 of the 23 files we identified as having lower reviews than designated on the PSA form
occurred after that May 2012 finding.

The SEPS Assistant Director told us that, in December 2013, SEPS completed a review of all
FDIC position descriptions to validate position sensitivity levels using OPM’s automated
Position Designation Tool. The review determined that 26 percent of existing position
descriptions were incorrectly designated either lower or higher than determined using the
Position Designation Tool. SEPS initiated work with DOA’s Human Resources Branch to
correct discrepancies and request appropriate scope background investigations for those
incumbent employees.

Timeliness of Background Investigation Processes

Our evaluation assessed PSSP performance with respect to key OPM and FDIC metrics related
to requests for investigation, reporting of agency adjudicative actions to OPM, adjudication of
National Security9 cases, and the preliminary approval of contractors, as follows:

Request for Investigation. OPM requires that Federal departments and agencies request
investigations within 14 days of an applicant’s certification of the Application for Public Trust

9
 National Security positions involve activities of the government that are concerned with protecting the nation from
foreign aggression or espionage and that require regular use of, or access to, Classified National Security
Information, per FDIC Circular 1600.3, National Security Program.



                                                          7
Positions form or the electronic equivalent, OPM’s e-QIP. We tested the 82 applicable files
submitted to OPM for investigation10 by comparing the applicant’s certification date to the date
OPM scheduled the subject’s investigation and found that PSSP requested investigations for
74 files (90 percent) in excess of 14 days. Submission times for files that exceeded the 14-day
metric ranged from 15 to 557 days, with a median of 59 days. Our testing results were consistent
with the OPM-FIS program review that found 86 percent of cases were submitted in excess of
14 days in 2011. SEPS internal performance metrics showed marked improvement in the fourth
quarter of calendar year 2013. Further, SEPS management advised the OIG, but we did not
confirm as part of this evaluation, that as of March 2014, SEPS was meeting the 14-day criteria
to submit investigations to OPM. SEPS also indicated that the FDIC had mandated the use of
OPM’s e-QIP system for the electronic submission of all background investigation
questionnaires.

Table 3: Investigations Not Submitted to OPM Within 14 Days
                                       Files                                        Exceptions by Year
                    Tested        Exceptions        Percentage           2011         2012     Through July 2013
Contractor            39              31                79%               88%          75%            82%
Employee              43              43               100%              100%         100%           100%

Total                  82              74                90%              96%           87%          89%
Source: OIG analysis of background investigation files.

Report of Agency Adjudicative Action. OPM requires federal departments and agencies to
report adjudication outcomes to OPM through paper or electronic Forms 79A, Report of Agency
Adjudicative Action, as soon as possible, and no later than 90 days after receiving the
investigation from OPM. OPM-FIS tested this metric in its program review and found that the
average return time was 242 days. In addition, OPM-FIS noted 343 instances (25 percent of
investigations completed within the program review scope) where investigations had been
completed for more than 90 days but PSSP had never returned the Form 79A to OPM.

For the 89 files we tested where a Form 79A was submitted to OPM,11 we found that the PSSP
team submitted 43 forms (48 percent) to OPM in excess of 90 days. Submission times for forms
that exceed the 90-day goal ranged from 93 to 477 days with a median of 224 days. We also
identified files in which a Form 79A was never submitted. Of the files we tested, the FDIC
improved its submission timeliness each year, significantly in 2013 compared to 2011. In
addition, the SEPS Assistant Director advised the OIG that he implemented new procedures in
2014 that should further improve timeliness.




10
     This test was not applicable to all files due to reciprocity.
11
     This was not applicable for all files because not all files went through adjudication.



                                                               8
Table 4: Forms 79A Not Sent to OPM Within 90 Days
                                 Files                                     Exceptions by Year
                Tested     Exceptions        Percentage          2011       2012     Through July 2013
Contractor        43           14               33%              50%        30%             23%
Employee          46           29               63%              85%        56%             25%

Total              89            43              48%             73%          42%                24%
Source: OIG analysis of background investigation files.

National Security Reviews. The Intelligence Reform and Terrorism Prevention Act (IRTPA)
established standards for adjudicative timeliness for National Security reviews. Agencies have a
goal to adjudicate the fastest 90 percent of initial security clearance investigations in an average
of 20 days. We tested six National Security cases in our sample.12 Two files (33 percent) were
adjudicated within the 20-day period. The four files that exceeded the 20-day goal had
adjudication ranges of 24-224 days with a median of 133 days. The OPM-FIS program review
also tested this metric. OPM-FIS identified 20 National Security investigations in its review, and
found the 90 percent fastest adjudicated investigations took an average of 151 days. SEPS
internal performance metrics showed marked improvement in the fourth quarter of calendar year
2013. Further, management advised the OIG, but we did not confirm as part of this evaluation,
that as of March 2014, SEPS was adjudicating national security cases within an average of
10 days.

Table 5: National Security Cases Not Adjudicated Within 20 Days
                                 Files                                     Exceptions by Year
                Tested     Exceptions        Percentage         2011        2012     Through July 2013
Contractor        3            2                67%             100%         0%            100%
Employee          3            2                67%              0%         50%            100%

Total              6             4               67%            100%          33%                100%
Source: OIG analysis of background investigation files.

Contractor Preliminary Approvals. Per FDIC Circular 1610.2, Personnel Security Policy and
Procedures for FDIC Contractors, the preliminary approval process should take about 3 to 5
business days to complete once the PSSP team receives all of the required information. Our test
of 52 contractor files showed 36 (69 percent of files tested) did not meet that 5-day goal. This
test measured the time between the certification date of the Application for Public Trust
Positions form and the date on which the FDIC finalized preliminary clearance. Files that
exceeded the 5-day goal took from 6 to 295 days to preliminarily clear, with a median of
29 days.

Table 6: Contractor Preliminary Approvals Not Completed Within 5 Days
                                 Files                                     Exceptions by Year
                Tested     Exceptions        Percentage         2011        2012     Through July 2013
Contractor        52           36               69%             42%         75%             81%
Source: OIG analysis of background investigation files.

12
  There were 225 National Security cases among the population of 6,907 cases during the evaluation period, or
3 percent of the population. We sampled the 6 National Security cases (3 percent of the 225), as explained further in
Appendix 2, Sampling Methodology.



                                                          9
Documentation Maintained in Investigation Case Files

We tested all 108 files for completeness of the internal Summary Sheet checklist and other key
documentation. The Summary Sheet is supposed to be included in each file to track review
progress, issues, and milestones and to indicate approvals in certain situations. However, there
are no standard protocols or policies on what items should be captured on the form. The sheet is
manually completed by the PSSP team and maintained on the left inside flap of each file. Due to
the manual nature of the current review process, the PSSP team considers this sheet important
because it provides the current status, shows outstanding issues, and helps to ensure the
investigation is complete. Missing information on the Summary Sheet increases the likelihood
that key milestones could be missed or actions taken on investigations misunderstood by the
review team. We reviewed the Summary Sheet for each file to assess whether key review
milestones and signoffs were documented.

For our testing related to the Summary Sheet, we tested all files for the existence of the Summary
Sheet and nine review milestones, as applicable to each file. Of the 108 files reviewed, 16 files
(15 percent) did not include a Summary Sheet and 90 files (85 percent) were missing one or
more of the key milestones on the Summary Sheet. In total, we performed 720 Summary Sheet
completeness tests13 and identified 385 exceptions related to missing documentation or missing
milestones (53 percent).

Table 7: Files with Incomplete Summary Sheet Documentation
                                   Files                                       Exceptions by Year
                 Tested     Exceptions         Percentage           2011         2012    Through July 2013
Contractor         58           56                 97%               94%         96%            100%
Employee           50           50                100%              100%        100%            100%

Total              108           106               98%              97%           98%                100%
Source: OIG analysis of background investigation files.
Note: Tests performed assessed, where applicable, the summary sheet for the following: included in file; updated for
e-QIP or Form 85P; fingerprints submitted; fingerprint results; Letter of Inquiry sent (preliminary clearance); Letter of
Inquiry received (preliminary clearance); final preliminary clearance assessment; sent to OPM; received from OPM;
and Letter of Inquiry sent (adjudication).

We also tested all 108 files for completeness of 24 key documents in the review process that the
PSSP team and we considered critical to the review and to support the investigation’s final
determination. Of the 108 files reviewed, 100 files (93 percent) were lacking one or more of the
documents for which we tested. Of the 100 files with issues identified, we performed 1,794
tests14 and identified 334 exceptions (19 percent). The current, primarily manual operational
environment requires a large number of forms and documents to be included and lends itself to
higher risk of missing documentation. Files missing key documentation are more susceptible to
inappropriate preliminary clearance and final adjudication determinations.



13
     Not all tests were applicable for each file based on the unique nature of each background investigation.
14
     Not all tests were applicable for each file based on the unique nature of each background investigation.



                                                            10
Table 8: Files Missing Documents
                                Files                                        Exceptions by Year
              Tested      Exceptions         Percentage           2011         2012    Through July 2013
Contractor      58            51                88%               100%         83%             82%
Employee        50            49                98%               100%         95%            100%

Total            108           100               93%              100%          89%                88%
Source: OIG analysis of background investigation files.
Note: Tests performed assessed, where applicable, the files for a record of the following: e-QIP or Form 85P;
Declaration for Federal Employment; applicant certification statement; tax check waiver; credit report; public record
                         ®
report from LexisNexis ; previous investigations from CVS; fingerprint card; Background Investigation Questionnaire
(FDIC Form 1600/04); Notice and Authorization Pertaining to Consumer Reports (FDIC Form 1600/10); fingerprint
results; Letter of Inquiry (preliminary clearance); email to OIG and Division of Resolutions and Receiverships (DRR);
OIG and DRR results email; OPM Investigation Report; Letter of Inquiry (adjudication); notification letter to employee;
Form 79A; and Certificate of Investigation. Also, testing assessed whether the following, where applicable, were
adequately supported: mitigated derogatory OPM results; files OPM returned as unacceptable; mitigated Letter of
Inquiry (preliminary clearance); mitigated derogatory preliminary clearance results; and mitigated Letter of Inquiry
(adjudication).

As discussed in the next section, we concluded that our testing results could be attributed to
weaknesses in policies and procedures and historical management resource issues.

PSSP Policies and Procedures

We concluded that PSSP policies and procedures in key control, process, and reporting areas
were not in place, well understood, nor consistently practiced by federal or contractor employees.
Policies and procedures are important in ensuring that management directives are carried out
completely and consistently. SEPS provided a policies and procedure manual related to
preliminarily clearing, investigating, and adjudicating potential FDIC employees and contractor
staff. The manual consisted of a loose collection of briefing slides, job aids, and form letters.
Most of the SEPS employees that we interviewed did not recognize the manual. SEPS team
members initially told us a policies and procedures manual did not exist and that the PSSP
support contractor was developing a manual.

SEPS approved and issued the Standard Operating Procedures Handbook for Operations at
FDIC in the fourth quarter of 2013 for PSSP support contractor staff. The revised procedures
appear detailed and comprehensive. However, SEPS still needs to develop updated procedures
that address the roles and responsibilities unique to the SEPS federal employees.

Management Oversight of the PSSP

We concluded that SEPS management resource issues also contributed to some of our testing
results, both with respect to continuity and span of control. During the period under evaluation,
the former SEPS Assistant Director managed the function through 2012, with the current
Assistant Director assuming responsibility in January 2013. The Corporate Services Branch
Deputy Director also retired in October 2013. Additionally, the PSSP contractor experienced
management and staff turnover. These management and staffing changes created continuity
challenges for the PSSP.




                                                          11
The Assistant Director is also responsible for other DOA program areas. Specifically, in
addition to personnel security, the Assistant Director oversees emergency preparedness, physical
security, and transportation. These areas are staffed by an additional 10 FDIC permanent
employees. Having all of these program responsibilities creates a wide span of control for the
Assistant Direct and limits his ability to effectively oversee PSSP operations.

In addition to the Assistant Director, the SEPS Personnel Security Unit had five federal
employees during the period of our evaluation: a Lead Personnel Security Specialist and another
personnel security specialist, both FDIC permanent positions; two additional FDIC term
personnel security specialists;15 and a personnel security assistant. The Lead Personnel Security
Specialist is responsible for:

        overseeing and directing daily activities of the personnel security staff;
        researching, writing and updating program policies and procedures; and
        ensuring the PSSP complies with federal regulations, EOs, and FDIC directives.

The Lead Personnel Security Specialist position should also serve as the oversight manager
(OM) for the PSSP support contract. However, DOA management determined that the current
Lead Personnel Security Specialist had a conflict with performing that duty. As a result, DOA
management assigned PSSP support contract OM responsibilities to the Assistant Director,
which broadens his span of control.

In October 2013, the FDIC approved a new Chief, Security Operations Unit, position that should
provide much needed day-to-day PSSP supervision. DOA filled the Chief position in early 2014.
Figure 1 represents the new SEPS organizational structure.




15
  Of the two FDIC term personnel security specialists, one individual’s term ended in September 2013 and is no
longer with the FDIC. The second individual resigned at the end of May 2014 to accept permanent employment
outside the FDIC.



                                                       12
Figure 1: SEPS New Organizational Structure
                                                              Assistant Director
                                                                CM-0301-02



                            Special Security
                                Officer
                             CG-0080-14




              Chief,                                                                                     Lead, Physical
                                                               Chief, Security
          Transportation                                                                                    Security
                                                               Operations Unit
           Supervisory                                                                                  Non-Supervisory
                                                                CM-0080-01
           CG-0301-14                                                                                     CG-0080-14




                                          Lead, Emergency                           Lead, Personnel
           Operations                                                                                   Physical Security
                                            Preparedness                               Security
            Specialist                                                                                     Specialist
                                          Non-Supervisory                           Non-Supervisory
           CG-0303-12                                                                                     CG-0080-11
                                             CG-0089-14                               CG-0080-14




                                                Emergency                          Personnel Security
           Operations                          Preparedness                                             Physical Security
            Assistant                                                                  Specialist          Specialist
                                                 Specialist                           CG-0080-13
           CG-0303-06                           CG-0089-14                                                CG-0080-11




                                                Emergency                          Personnel Security
           Lead, Motor                         Preparedness                            Specialist
         Vehicle Operator                        Specialist                           CG-0080-11
           WL-5703-09                           CG-0089-12                               (term)




                                                                                   Personnel Security
                                                                                       Assistant
                                                                                      CG-0086-07


Source: SEPS.

Program Changes and Improvements

The current Assistant Director indicated that he made a number of program changes following
our testing period and realized program improvements in late 2013 and early 2014, such as:

      Eliminating the backlog of pending and in-process cases and reducing the processing
       time for submissions to OPM. The Assistant Director indicated that SEPS had reduced
       its background investigations backlog from 650 cases in April 2013 to 113 cases in
       March 2014.
      Eliminating the adjudication case backlog from 464 cases in April 2013 to 14 cases in
       March 2014.
      Implementing the use of OPM’s e-QIP system to electronically submit background
       investigation questionnaires from 44 percent in June 2013 to 100 percent in March 2014.
       The Assistant Director noted that the use of e-QIP should result in shorter review time
       frames before submission to OPM, reductions in submission rate errors, and increased
       case tracking accountability.
      Completing a review of all FDIC position descriptions (1,315) to ensure they had
       appropriate position sensitivity determinations using OPM’s automated Position
       Designation Tool.
      Instituting a periodic reinvestigation program for incumbent federal staff occupying
       moderate risk positions.



                                                                     13
      Increasing manpower levels associated with the security support contract by adding
       experienced adjudicators and security assistants, replacing the project manager with a
       more experienced senior project manager, and creating and staffing an assistant project
       manager and a business analyst position.
      As discussed earlier, reorganizing SEPS; establishing one new federal supervisory
       position to manage the Security Operations Unit, which oversees the PSSP; and hiring an
       experienced career federal employee to provide day-to-day close supervision and
       management of the security support contract and federal staff.

As discussed elsewhere in this report, SEPS also began an effort to digitize background
investigation files and automate the PSSP process through an enterprise content management
platform, known as the Personnel Security Records (PERSEREC) project. This effort is
intended to improve records management, program efficiency, and performance reporting.

Recommendations

Overall administration of the PSSP program could be strengthened as indicated by our findings
associated with the preliminary clearance and adjudication determinations we reviewed. As
noted throughout this section of the report, those findings must be viewed in the context of the
timing of our testing and the evolving nature of the program. In that regard, we identified
opportunities for DOA to take steps that complement the Assistant Director’s efforts and ensure
that program improvements are sustained and effective. Accordingly, we recommend that the
Director, DOA:

   1. Work with the Legal Division to clarify (a) under what circumstances SEPS should
      submit background investigations that may fall outside the Minimum Standards of
      Fitness requirements for legal review and (b) how SEPS should handle background
      investigation cases involving probation before judgment situations.

   2. Establish and implement standard operating procedures for SEPS employees to
      complement the Standard Operating Procedures Handbook for Operations at FDIC
      developed for the PSSP support contractor.

   3. Direct DOA’s Management Services Branch to follow up on issues raised in this report
      after a reasonable period of time is allowed for implementation of control improvements.


Contractor Performance and Oversight
DOA substantially relies on the PSSP support contractor to perform background investigation
functions and to provide personnel suitability program support. We found that most contractor
charges that we reviewed were supportable. We identified a few exceptions related to contractor
overtime hours, labor category mix, the timely signature of modifications, and written approvals
for key personnel changes. Further, while we determined that most contractor staff met
minimum qualifications, we identified two staff that did not. Finally, we concluded that contract




                                               14
oversight could be strengthened by SEPS establishing better criteria for measuring contractor
production and performance.

As of the start of our field work in September 2013, the PSSP was supported by 22 contractor
staff, as shown in Figure 2, below.

Figure 2: PSSP Support Contractor Staff Organizational Structure
                                                                            Senior Project
                                                                              Manager



                                                      Assistant Project
                                                         Manager




                                                                                                                                              Emergency
                      Personnel Security      Personnel Security          Personnel Security   Personnel Security   Business Process
     Adjudicator II                                                                                                                          Preparedness
                      Specialist III (Lead)      Specialist II               Specialist I          Assistant I         Consultant
                                                                                                                                                Officer




                                              Personnel Security          Personnel Security   Personnel Security
     Adjudicator II
                                                 Specialist II               Specialist I          Assistant I




                                              Personnel Security                               Personnel Security
     Adjudicator II
                                                 Specialist II                                     Assistant I




                                              Personnel Security                               Personnel Security
     Adjudicator I
                                                 Specialist II                                     Assistant I




                                                                                               Personnel Security
     Adjudicator I
                                                                                                   Assistant I




                                                                                               Personnel Security                  Supports
                                                                                                   Assistant I                  Transportation


Source: SEPS.

We performed tests of the contractor’s invoices and assessed the extent to which the contracting
officer (CO), OM, and technical monitor (TM) for the PSSP support contract followed FDIC
procedures related to their roles in oversight and administration of the contract. Results of this
aspect of our review follow.

Invoice Testing. We obtained the population of invoices submitted and paid during the
evaluation period and selected a non-statistical sample of four invoices to identify the nature and
extent of costs incurred, verify rates billed were correct, determine that hours billed were
authorized, and confirm labor category maximums defined in the contract were followed. We
found that most contractor charges were supportable. The few exceptions we did identify related
to labor category mix and overtime hours and were either satisfactorily addressed by the OM or
not significant.




                                                                                  15
Contract Modifications. The current PSSP support contractor assumed the contract from a
previous contractor via a novation contract effective May 1, 2013 and retained the previous
contract terms and the previous contractor’s personnel supporting the FDIC’s PSSP. We
reviewed all contract modifications associated with the PSSP support contract. While contract
modifications were appropriately signed, signatures were not always timely. First, 2 of 32
contract modifications and other notifications that we tested were signed 28 days after their
effective date. The CO noted that this is not against FDIC policy. Second, the language in the
body of the novation contract, which changed the contractor from the old to the new PSSP
support contractor, stated the modification was effective April 1, 2013. However, the top of the
modification shows an effective date of May 1, 2013, which was also the date the modification
was signed. The CO advised us that the novation was anticipated to be effective April 1, 2013,
but the process for approval took longer than expected. The CO noted that the April 1, 2013
effective date in the body of the contract was an oversight. Signing contracts after their effective
date could raise legal challenges as to responsibilities and obligations if disputes were to arise
regarding events occurring between the effective date and the signature date of the contract.

Contractor Key Personnel. The PSSP support contract requires the contractor to give the CO
notice 14 days prior to key personnel changes, and the CO is required to approve all such
changes in writing. Further, the FDIC’s Acquisition Policy Manual (APM) requires that the CO
issue a contract modification when such changes are needed. In 12 of 35 key personnel changes
we tested, there was no documentation supporting that the CO was notified, nor any evidence of
a contract modification addressing the changes.

Contractor Staff Qualifications. We assessed 25 contractor personnel additions and
6 contractor position level increases associated with the PSSP support contract. Our evaluation
compared PSSP support contractor staff résumés relative to the minimum qualifications outlined
in the PSSP support contract for each labor category. We did not receive contractor résumés for
two PSSP support contractor staff.

We determined that most contractor staff met minimum qualifications. However, there were two
instances where our assessment found PSSP support contractor staff were cleared as Personnel
Security Assistants with qualifications lower than the minimum required criteria cited in the
contract. The Personnel Security Assistant is the lowest level labor category associated with the
contract. The CO advised us that the minimum qualifications are a guideline and the ultimate
decision is at the OM’s discretion. However, the FDIC’s Acquisition Procedures, Guidance and
Information provides that the OM must ensure that contractor personnel possess the requisite
experience and qualifications required by the contract through evaluation of an individual’s
résumé, observation of an individual’s performance, or both.

We found one instance in which a PSSP support contractor staff member was promoted from
Personnel Security Assistant to Security Specialist I within a few months of going through
clearance. In our view, the person’s qualifications and background were not satisfactory for the
promotion based on the minimum position criteria and the PSSP support contractor staff
member’s project experience. The PSSP support contractor staff member was eventually
demoted back to Personnel Security Assistant because, according to the PSSP support contractor
Senior Program Manager, there was reduced need for a Security Specialist I position. Based on



                                                 16
discussion with SEPS employees, the individual was not qualified for the position and was not
performing in the Personnel Security Assistant role or the Security Specialist I role.

Evaluation of Contractor Performance. The OM, with the TM’s assistance, performs annual
evaluations of the PSSP support contractor to document the quality of the contractor’s product or
service, the contractor’s cost control, timeliness of the contractor’s performance, business
relations, and satisfaction with the contractor. The FDIC has not identified any negative
performance issues through those evaluations since the contract originated in November 2010.
The contract does not include either measurable production or performance criteria, and the
deliverables noted in the contract are very broad and have no milestones or timing requirements.
Specifically, Section 3.0, Requirements/Tasks, of the contract’s Statement of Work (SOW)
summarized contractor expectations as general support of the PSSP in the areas of: personnel
security, physical security, and emergency preparedness. Another SOW section indicates only
that the “Contractor shall deliver the required services as specified in the SOW,” essentially
referring to itself, with no specific contract deliverables or related milestones specified. As the
contract requirements are geared towards general support of these areas, performance
deliverables and assessment of these deliverables are not easily quantifiable or measured.

The Assistant Director told us that he and the PSSP support contractor Senior Program Manager
began having weekly one-on-one status meetings in 2013, upon his arrival. In addition, in
conjunction with these status meetings, the Assistant Director and the Senior Program Manager
began developing weekly performance metrics in May 2013. Performance information is
currently collected and reported manually by each federal employee and contractor.
Implementation of the PERSEREC project should help to improve the reliability of underlying
performance metric data and automate and enhance performance reporting. SEPS plans to have
PERSEREC present management with a real-time, online dashboard reporting capability.

The APM recommends performance-based acquisition and performance-based management for
service contracts over $1,000,000. The PSSP support contract awarded in 2010 was for more
than $18 million but did not stipulate performance criteria, defined deliverables, or milestones to
meet the APM performance-based acquisition and management criteria. Such metrics facilitate
monitoring contractor performance and efficiency. Further, strong contract oversight helps to
prevent the FDIC from overpaying for services, paying for services that are not allowed under
the contract, accepting changes or additions to key personnel and contract terms without
appropriate consideration, or violating FDIC contracting policy.

Recommendations

To strengthen the FDIC’s oversight of the PSSP support contractor, we recommend that the
Director, DOA:

   4. Amend the PSSP support contract to establish clearly defined deliverables, key
      milestones in the background investigations process, and measurable performance
      criteria.




                                                17
   5. Apply APM guidance for performance-based management to the PSSP support contract
      to periodically assess and document contractor performance against defined deliverables,
      process milestones, and measurable performance criteria.


Records Management Controls
We concluded that records management controls over PSSP files, which include extensive
amounts of sensitive personally identifiable information (PII), need improvement. We observed
that file rooms were overloaded and disorganized and contained boxes of unfiled background
investigation documents. PSSP was challenged in timely providing background investigations
files that we selected for our review. We also observed that physical security over SEPS work
space could be strengthened. For example, the SEPS office suite is not secured by card entry and
contractors work in cubicles that cannot be secured as effectively as an office. These records
management weaknesses create inefficiency and, along with physical security issues, present
risks to the FDIC. Circular 1210.1, FDIC Records and Information Management (RIM) Policy
Manual, stipulates that files “should be maintained in an orderly, systematic manner so
documents can be retrieved quickly and sensitive information protected.”

We performed a walkthrough of the PSSP work environment, including the PSSP file room,
contractor work rooms, SEPS employee offices, and the FDIC file storage room, all of which are
within the FDIC’s Virginia Square office complex. The PSSP work space and files for current
FDIC employees and contractors, or “active files,” are located at the Virginia Square location.
“Non-active files” are transferred to an offsite records management storage facility.

We recognize that while the current PSSP environment is paper-based and manual, SEPS has
begun to digitize and automate the PSSP process. Digitization and automating PSSP processes
should help address the issues we found during our review; however, digitizing and automating
PSSP processes does not ensure or negate the need for strong, comprehensive records
management controls in PSSP’s future environment.

PSSP Work Space. At the time of our evaluation, the PSSP file room had boxes of files
stacked on the floor and on top of the file cabinets. There were also boxes of unidentified
personnel forms and documentation that had yet to be included in personnel files. While more
organized than the PSSP file room, the PSSP support contractor work rooms also had large
volumes of boxed files and a significant amount of unfiled documents on desks.

The applicant file information (e.g., fingerprint results, OPM follow-up results, etc.) that was
unfiled and stored in boxes in the PSSP file room was not easily retrievable because the files
were not labeled to match the official background investigation file or maintained in any
particular order, such as by applicant name. The PSSP support contractor Senior Program
Manager advised us that the documents were associated with completed background
investigations. Therefore, in his view, the effort and cost of associating the documents with files
at an offsite storage facility were not warranted in light of the impending digitization of
background investigation files. Nonetheless, at the time of our review, the records digitization




                                                18
effort had not determined how to associate this information with digitized background
investigation files.

The PSSP support contractor standard operating procedures document issued in late 2013
discusses file construction and composition in detail; however, it has few references to file
storage and maintenance. The PSSP support contract addresses records management only
generally in that contractor staff will file and “maintain” file rooms; however, the contract
provides no criteria to establish what “maintain” would mean in terms of organization of files,
work space, or file rooms.

File Storage and Inventory. We also performed a walkthrough of the FDIC background
investigation file storage room in the basement of the FDIC’s Virginia Square facility. The
FDIC engaged a records management contractor at the beginning of 2012 to reorganize the file
room and create a records management system. One records management contractor employee
maintains the room. SEPS employees indicated that the file room organization has improved
greatly since the records management contractor became involved. We observed that the file
room was, to some extent, organized. However, there was not sufficient space to house the files
in the filing cabinets. There were boxes piled on top of the filing cabinets and on the floor. The
records management contractor employee indicated that the many boxes on the floor either
needed to be refiled or were non-active files that needed to be transferred to an offsite records
management facility.

The records management contractor employee also walked us through his records management
system, which consisted of several electronic spreadsheets. The records management contractor
updates the spreadsheet when each file is taken from the room and when it is returned. The
spreadsheet only captures file activity since the records management contractor became
associated with the project in early 2012 and is limited to files located in the storage room. We
did not identify any PSSP-specific records management policy, nor did we see any indication in
other policies denoting responsibility for maintaining a master inventory of background
investigation files. The records management contract indicates the contractor “shall provide staff
and supervisory personnel for records management operations and services on site at FDIC
locations, or on Contractor's premises while conducting FDIC business.” However, the contract
stipulates only for off-site processing and storage that the contractor must “implement adequate
administrative, technical, physical and procedural security controls to ensure that all FDIC
information in its possession or under its control is adequately protected from loss, misuse, and
unauthorized access or modification.”

The records management contractor also told us that his list would not capture all file movement
because the PSSP team has access to the file storage room and can remove files without his
knowledge. Access to the file room is maintained by a lead physical security specialist. SEPS
could not readily provide us a list of personnel with access to the file room. As a result of our
inquiry, SEPS indicated that it removed eight individuals from the file storage room access list.

Requested Files. These records management weaknesses also impacted SEPS’ ability to
provide requested files for our detailed testing. We selected an original sample of 118 files and
selected 14 additional files because SEPS was having difficulty locating some of the files. We



                                                19
reviewed 108 files that SEPS provided timely. SEPS provided most of the remaining files over a
3-week period; however, five files remained missing at the end of our field work. The records
management contractor’s file system also did not accurately reflect the status or location of some
of the files.

The records management weaknesses we identified pose risks to the FDIC, including
unauthorized release and access to large volumes of PII and the inability to readily obtain
documentation that supports background investigation determinations. As discussed later, during
our evaluation, SEPS began an effort to digitize background investigation files and automate the
PSSP process through an enterprise content management platform. This effort should greatly
improve records management controls and process efficiency. SEPS has also indicated that it is
being mindful of building adequate workflow process controls into the automation effort to
address deficiencies noted in this report.

Recommendations

We recommend that the Director, DOA:

   6. Ensure that the ongoing and future records digitization and PSSP automation efforts
      include effective inventory controls that include clearly defining responsibilities to
      periodically inventory both electronic and non-electronic PSSP records, whether
      maintained at the FDIC’s Virginia Square facility or offsite; maintaining PSSP work
      space in a manner that would prevent loss or inadvertent disclosure of electronic and
      non-electronic records; conducting periodic inspections of work and file spaces; and
      setting and monitoring timeframes for filing or recording information.

   7. Establish effective physical controls to all PSSP work space, including PSSP support
      contractor work space, to ensure space can only be accessed by authorized personnel.


Information Systems Reliability and Controls
We concluded that the background investigation data were not reliable in the DOA systems used
to capture preliminary clearance data and provide management reporting: the Background
Investigation Review Tracking (BIRT) System and the Corporate Human Resources Information
System (CHRIS). We determined that the controls over BIRT data input and review could be
strengthened and that the two systems contained redundant data.

Reliability of BIRT and CHRIS Data. The PSSP team uses BIRT solely to capture and retain
preliminary clearance data related to the PSSP. BIRT was created to house preliminary
clearance related data so CHRIS would not be used to house data for potential employees or
contractor personnel that did not preliminarily clear. The PSSP team updates data in BIRT
manually, and there is neither review of data entered into BIRT nor approval functionality in the
system. Generally, any field in BIRT can be updated and overwritten by anyone with access, at
any point in time. BIRT has an audit function, but it is not used. BIRT’s data is redundant in




                                                20
regards to preliminary clearance data captured in CHRIS for employees and contractor personnel
who have been preliminarily cleared, although BIRT captures more data fields than CHRIS.

CHRIS is the FDIC’s human resources information system, which also contains the employee
and FDIC contractor staff data for the PSSP. CHRIS retains both preliminary clearance and
adjudication data in separate areas, but the primary CHRIS function related to the PSSP is to
capture and retain adjudication data. The preliminary clearance section of CHRIS is redundant
of information captured in BIRT, capturing only a subset of the BIRT data. BIRT and CHRIS do
not interface, and all input is manually entered into each system.

We tested all 108 files for accuracy and completeness of 7 key BIRT fields and 9 key CHRIS
fields as applicable to each of the respective files. Of the 108 files in our sample, we identified
issues in 93 files (86 percent). In total, we performed 1,132 tests16 and identified 278 exceptions
(25 percent) among the 93 files.

For BIRT, we tested 7 key fields for completeness and accuracy, resulting in 545 applicable
tests. We identified 86 exceptions (16 percent) in 39 files (36 percent).17

Table 9: BIRT Records with Missing or Erroneous Data
                                  Files                                        Exceptions by Year
                Tested        Exceptions       Percentage           2011         2012     Through July 2013
Contractor        58              23              40%               53%          29%              41%
Employee          50              16              32%               15%          43%              44%

Total              108             39               36%             32%            36%                  42%
Source: OIG analysis of background investigation files and BIRT system data.
Note: Tests performed, where applicable, confirmed BIRT recorded the following: receipt of e-QIP; fingerprints
submitted to Department of Justice; fingerprint results received; Letter of Inquiry sent (preliminary clearance); Letter
of Inquiry Response (preliminary clearance); transfer records; and preliminary clearance assessment.

For CHRIS, we tested 9 key fields for completeness and accuracy, resulting in 587 applicable
tests. We identified 192 exceptions (33 percent) in 83 files (77 percent).18

Table 10: CHRIS Records with Missing or Erroneous Data
                                  Files                                        Exceptions by Year
                Tested        Exceptions       Percentage           2011         2012     Through July 2013
Contractor        58              35              60%                53%         58%             71%
Employee          50              48              96%               100%         95%             89%

Total              108             83               77%             78%            76%                 77%
Source: OIG analysis of background investigation files and CHRIS data.
Note: Tests performed, where applicable, confirmed CHRIS recorded the following: transfer records; final
information summary sheet for transfer records; sent to OPM; date form sent, received, and investigation initiated;
preliminary clearance assessment; OPM schedules review; OPM results received; Letter of Inquiry submitted; final
adjudication.



16
   Not all 16 fields were applicable to each file based on the unique nature of each background investigation.
17
   Not all BIRT fields are applicable to each file.
18
   Not all CHRIS fields were applicable to each file based on the unique nature of each background investigation.



                                                           21
We found no clear or consistent practices for updating or reviewing data entries made to BIRT
and CHRIS. This results in inconsistent updates to CHRIS and BIRT fields. The resulting
reports produced from these systems are incomplete and not reliable. As noted previously,
CHRIS can be updated by members of the PSSP team as well as other groups within the FDIC
without approvals or an audit trail. This situation poses a risk that background investigation
information could be inadvertently or purposefully changed without detection.

The Assistant Director indicated that when PERSEREC is fully operational, BIRT will no longer
be needed and will be retired. SEPS also plans to deploy a business process management
system, known as eWORKS (Enterprise Workforce Solution) in 2015. eWORKS will integrate
PERSEREC with CHRIS and OPM systems to effect automatic data synchronization, track and
update the status of cases as DOA completes each step in the process, and automate the sending
and receiving of background investigation case information. eWORKS is currently in the
planning stage.

Reliability of PSSP Reporting. Our evaluation included an assessment of the current PSSP
reporting environment and structure. Discussions with the PSSP team identified the current
reports the team used. For the 11 reports identified, we determined the source data for the
reports, how they were prepared, and report purpose. Two of the reports are from BIRT, one
report is from CHRIS, four reports are prepared manually, and four reports are from OPM.
These reports are currently used to ensure completeness of reviews and appropriate investigation
standing of each employee and contractor staff person within the FDIC.

The seven reports that are extracted from CHRIS or BIRT or manually derived may pose risks in
terms of both completeness and accuracy of reporting. The manually prepared reports are based
on PSSP support contractor staff inputs for which there are no validity controls in place.
Because the inputs for all seven of these reports lack accuracy and completeness, the reports
generated from such inputs may be unreliable.

Standardized reporting—based on OPM and internal metrics—should be a fundamental
management tool to measure PSSP success. The current paper-based records management
system, coupled with unreliable BIRT and CHRIS data, hampers SEPS’ ability to accurately
measure PSSP successes, failures, or progress where constructive improvements have been
made.

Recommendation

We recommend that the Director, DOA:

   8. Evaluate existing reporting systems and establish more comprehensive and reliable
      reporting mechanisms that:

           Provide adequate controls to ensure data input and reports are timely and accurate,
           Align with OPM-required timeframes and other key operational metrics, and
           Allow for identifying and addressing missing file documentation.




                                               22
Digitization and Automation Efforts
As discussed throughout this report, during our evaluation, SEPS began an effort to digitize
background investigation files and automate the PSSP process through an enterprise content
management platform, known as the PERSEREC project. This effort should improve records
management and efficiency. However, SEPS will need to ensure that it builds adequate
workflow process controls into the automation effort to address the weaknesses noted in this
report.

The SEPS Assistant Director indicated that he has developed a three-phase plan to digitize
existing and future background investigation files and automate the background investigation
process.

      Phase I of the project will consist of digitally scanning approximately 650,000 pages of
       existing paper background investigation case files into Documentum, an FDIC-owned
       document storage system, and developing a method for scanning documents from
       ongoing background investigation cases into the Documentum repository going forward.
       In December 2013, the FDIC’s Chief Information Officer’s Council approved the
       PERSEREC project and $280,000 to complete Phase I.

      Phase II of the project will be to develop a process workflow management system to
       allow SEPS to electronically implement, manage, and monitor the background
       investigations process. The Assistant Director has $80,000 in DOA discretionary funding
       to begin researching Phase II solutions. In this respect, we understand that SEPS
       completed an “as is” evaluation of the background investigation process and was
       planning on completing a “to be” process evaluation which would identify process gaps
       and control weaknesses that the workflow management system should address.

      Phase III of the project is conceptual at this point, but would create an enterprise system
       to manage personnel suitability issues for an employee or contractor “cradle to grave”
       across employees’ and contractors’ tenure with the FDIC.

The digitization and automation planning documents available to us during this evaluation lacked
specificity and did not clearly address how SEPS will remediate existing gaps and weaknesses in
the PSSP through the use of Documentum, or what the next automation steps might be once
Phase I is completed. Management advised us that such planning is currently underway and
future digitization and automation efforts would address PSSP process control weaknesses. We
believe it is important that the PERSEREC project plan specifies specific system-related control
activities such as reasonableness and edit tests, supervisory review and approvals,
reconciliations, task assignment and case tracking, and elapsed-day metrics, to help ensure that
the digitized files are complete and to drive process efficiency. SEPS should also use this
automation effort as an opportunity to build meaningful performance metrics, dashboard
capabilities, and activity reports.




                                                23
Recommendations

To ensure the digitization and automation effort optimizes PSSP records management and
operations, we recommend that the Director, DOA:

   9. Complete the “to be” background investigation process evaluation and identify process
      gaps and control weaknesses that the workflow management system should address,
      including issues identified in this report.

   10. Ensure the PERSEREC project plan is sufficiently detailed and comprehensive to address
       process gaps and control weaknesses; desired reporting and performance metric
       capabilities; and costs or savings associated with migrating data from BIRT and CHRIS
       and retiring BIRT, destroying hard copy background investigation records, and digitizing
       records.


Corporation Comments and OIG Evaluation
The Director, DOA provided a written response, dated July 24, 2014 to a draft of this report.
The response is presented in its entirety in Appendix 6. In the response, the Director, DOA,
described program improvements that were occurring during and after the scope of our review
associated with many of the report’s findings and recommendations. The Director, DOA,
concurred with the report’s 10 recommendations and described corrective actions to address each
recommendation. The completed or planned actions are responsive and the recommendations
are resolved. DOA’s management response indicated that it had completed corrective action for
three recommendations (recommendations 8, 9, and 10). We met with SEPS officials and
reviewed supporting documentation and confirmed that those recommendations could be closed.
The remaining recommendations will remain open until the FDIC’s Corporate Management
Control Branch notifies the OIG, or the OIG independently confirms, that corrective actions have
been completed. A summary of the Corporation’s corrective actions is presented in Appendix 7.




                                              24
                                                                                   Appendix 1

                   Objective, Scope, and Methodology
Objective

Our evaluation objective was to determine whether the FDIC is carrying out its Personnel
Security and Suitability Program efficiently and effectively. To fulfill this objective, we
evaluated (1) FDIC management’s overall administration of the program, including the extent to
which applicable policies and procedures are in place and being followed; (2) oversight and
administration of the contract supporting the program; and (3) the nature, extent, allowability,
and reasonableness of costs incurred under the contract supporting the program.

Scope and Methodology

The scope of this evaluation included the FDIC’s oversight and administration of the Personnel
Security and Suitability Program and contractor personnel and billings from January 1, 2011
through July 31, 2013. We performed our work at the FDIC’s headquarters offices in Arlington,
Virginia, and Washington, D.C., from August 2013 to January 2014 in accordance with the
Council of the Inspectors General on Integrity and Efficiency’s Quality Standards for Inspection
and Evaluation.

The OIG contracted with BDO USA, LLP to assist OIG staff in completing the plan for this
evaluation, and conducting, analyzing and presenting testing results. The OIG remained
responsible for all decisions, including the scope, methodology, and reporting.

Program Administration. To evaluate the FDIC’s overall administration of the program, we
first gained an understanding of program requirements by:

      Reviewing the Federal Deposit Insurance Act, as amended, and related regulations;

      Reviewing the following FDIC corporate policies and procedures:

            o FDIC Circular 2120.1, Personnel Suitability Program;
            o FDIC Circular 2120.5, Minimum Standards for Employment with the Federal
              Deposit Insurance Corporation ("Corporation") as Mandated by the Resolution
              Trust Corporation Completion Act ("RTCCA");
            o FDIC Circular 1610.2, Security Policy and Procedures for FDIC Contractors;
            o FDIC Circular 1600.3, National Security Program;
            o FDIC Circular 3700.16, FDIC Acquisition Policy Manual (APM); and
            o FDIC Acquisition Procedures, Guidance and Information (PGI), August 2013;
              and

      Identifying and reviewing SEPS standard operating procedures in place during the scope
       of our review, and identifying that the PSSP support contractor was developing, and that
       SEPS issued during our field work, comprehensive procedures for PSSP support
       contractor staff.




                                               25
                                                                                      Appendix 1

                     Objective, Scope, and Methodology
In addition, we interviewed the following FDIC officials to determine their roles,
responsibilities, and perspectives related to this evaluation’s objective, including how business
processes have changed to address OPM program review findings and recommendations or
improve PSSP procedures generally:

       Acting Chief Information Officer;
       Director, DOA;
       Deputy Director, CSB (retired early October 2013);
       Assistant Director, SEPS;
       Lead Personnel Security Specialist and other SEPS personnel;
       Senior Program Manager and other PSSP support contractor staff; and
       The file storage room records management contractor employee.

We also interviewed the Chief Inspector, Agency Oversight, OPM-FIS.

We performed a walkthrough of the PSSP work environment, including the PSSP file room,
contractor work rooms, SEPS employee offices, and the FDIC file storage room, all of which are
within the FDIC’s Virginia Square office complex.

Through extracts from CHRIS, we determined that PSSP processed 6,907 background
investigations for FDIC employees and contractors from January 1, 2011 through July 31, 2013,
as shown below:

Table 11: Background Investigations Processed, January 1, 2011 – July 31, 2013
                               2011                            2012    Through July 2013
     Employee                  1,934                           1,250          461
     Contractor                 689                            1,530         1,043

        Total                  2,623                           2,780         1,504
Source: OIG evaluation analysis of CHRIS data extracts.

We selected a non-statistical sample of 108 background investigation files from that universe, as
described in Appendix 2, Sampling Methodology.

Finally, we reviewed the 108 background investigation files to determine if the PSSP was
conducted economically, efficiently, and effectively by testing and analyzing, where applicable,
the following:

       Summary Sheet data,
       File documentation,
       Accuracy and completeness of CHRIS and BIRT data,
       Prior investigation(s),
       Risk level of position and investigation performed,
       Preliminary clearance and adjudication decisions, and
       Processing timeliness.


                                                          26
                                                                                    Appendix 1

                  Objective, Scope, and Methodology

In addition, we reviewed the proposed IT improvement strategy and performed a gap analysis to
identify areas for improvement to the IT program in support of the PSSP.

Contract Administration. To evaluate oversight and administration of the PSSP support
contract, we first obtained the relevant contract dated in 2010 and contract modifications. We
then:

      Interviewed the current and former COs, OM (who is the SEPS Assistant Director), and
       TM;

      Reviewed the contract and modifications to confirm they were processed timely and
       correctly under FDIC policies and procedures;

      Determined the extent to which the CO, OM, or TM vetted key contractor staff when
       changes occurred, and

      Assessed how the CO and OM assessed contractor performance.

Contract Costs. To determine the nature, extent, allowability, and reasonableness of costs
incurred under the contract(s) supporting the FDIC’s Personnel Security and Suitability Program,
we tested a non-statistical sample of contractor invoices for services performed from January
2011 through July 2013. (See Appendix 2, Sampling Methodology, for further information.)

Ongoing Program Changes. We determined that SEPS made a number of program changes,
realized some program improvements in late 2013 and early 2014, and hired new management
and key staff. While we expect that these efforts will strengthen the PSSP, they occurred largely
after our testing period, and we were unable to review or verify them. However, we did consider
those efforts in forming the recommendations in this report.




                                               27
                                                                                      Appendix 2

                              Sampling Methodology

This evaluation used non-statistical samples for all testing. The results of non-statistical samples
cannot be projected to the intended population by standard statistical methods.

Program Administration Testing

The figures below depict the 108 sample files that we judgmentally selected for testing. The
population consisted of all files active in the PSSP from the period January 1, 2011 through
July 31, 2013, which included 6,907 files identified through CHRIS based on activity within
those periods.

We originally selected 118 files, and then selected an additional 14 files due to missing files that
the PSSP team was not able to locate over a period of 20 days, 5 of which were still missing as of
January 31, 2014, 3 months after our initial request for files and a month after the end of our
field work. Of the total 132 files selected, only 108 were tested. We excluded from testing four
files due to core activity being performed outside of the review period and not related to active
personnel security and suitability checks, and 15 files because the PSSP team was not able to
locate the files timely.

The 108 files selected for testing were from the population of active reviews identified in the
CHRIS system. We requested all files that had activity in the CHRIS preliminary clearance
module as well as the CHRIS employee and contractor modules. FDIC officials provided three
CHRIS data extracts, one for each of these CHRIS modules, showing all files that had activity in
our evaluation period.

In selecting our sample, we first identified files that were reflected in both the CHRIS
preliminary clearance population as well as the CHRIS employee or contractor populations. We
identified the type of employment, background investigation type, adjudication determination,
and OPM risk designation. We then judgmentally selected files from each category to obtain a
representative number of files based on employment type and background investigation type.
These were further broken down by the adjudication determination and OPM risk designation, to
identify and include higher risk files in our sample, relative to the population.




                                                 28
                                                                                                        Appendix 2

                                   Sampling Methodology
Table 12: Sampled Files by Type of Investigation
Investigation              Population                            Sample
     Type     Contractor Employee Total Percentage Contractor Employee Total Percentage
 ANACI                 1       16     17       0%           1        1    2         2%
 BDI                   2        1      3       0%           1        1    2         2%
 BI                  470      156   626        9%         13         3   16        15%
 Fingerprint
                       -       17     17       0%           -        2    2         2%
 Request
 LBI                   5      334   339        5%           1        4    5         5%
 LDI                   1        1      2       0%           1        1    2         2%
 MBI               2,422    2,404 4,826       70%          27       24   51        47%
 NAC                   1        1      2       0%           1        1    2         2%
 NACI                285      466   751       11%           3        5    8         7%
 NACIC                 1        5      6       0%           1        1    2         2%
 NACLC                 6       43     49       1%           1        1    2         2%
 PRI                   6       48     54       1%           2        1    3         3%
 PRIR                  1        1      2       0%           1        1    2         2%
 RSI                   -        2      2       0%           -        -     -        0%
 SAC                   -        1      1       0%           -        1    1         1%
 SGI36                 3        3      6       0%           1        1    2         2%
 SGI60                 -        2      2       0%           -        1    1         1%
 SSBI                 44       65   109        2%           3        -    3         3%
 SSBI-PR              14       79     93       1%           1        1    2         2%

Total                  3,262         3,645    6,907           100%             58           50  108             100%
Total %                  47%           53%    100%                            54%          46% 100%
Source: OIG evaluation analysis.

Table 13: Sampled Files by Adjudication Result
                                                      Population                             Sample
         Adjudication Result                      Number      Percentage                Number    Percentage
No Adjudication                                        1,132         16%                       16        16%
Favorable                                              5,733         83%                       76        69%
Other                                                     15          0%                        4         4%
Unfavorable                                               27          0%                       12        11%

Total                                                     6,907           100%                    108           100%
Source: OIG evaluation analysis.

Table 14: Sampled Files by OPM Issue Indicator
                                                             Population                         Sample
              OPM Issue Indicator                        Number    Percentage             Number   Percentage
C & D Issues*                                                 400          6%                 43          40%
All Other                                                   6,507         94%                 65          60%

Total                                                          6,907             100%           108             100%
Source: OIG evaluation analysis.
*
  “C” issues are substantial and the conduct or issue, standing alone, may be disqualifying. “D” issues are major and
the conduct or issue, standing alone, would be disqualifying.




                                                         29
                                                                                  Appendix 2

                            Sampling Methodology
Contract Cost Assessment: Invoice Sample

We judgmentally selected four invoices from a total of 78 invoices that were submitted and paid
during the review period. In testing the four invoices, we reviewed:

      the nature of hours charged and the related source documentation,
      expenses for compliance with FDIC policies,
      hours billed within contract limits, and
      number of contractors billed in regards to labor category maximums.




                                              30
                                                                                    Appendix 3

                  Questioned or Unsupported
        Preliminary Clearance or Adjudication Decisions
Following are summaries of the 8 files where we questioned the preliminary clearance or
adjudication decisions or found such decisions lacked support.

Questioned Reciprocity Decisions. We questioned the PSSP’s reciprocity use in the
following two cases:

      In 2011, the PSSP team indicated in a file that it identified a previous investigation
       through CVS and entered that information into CHRIS. However, we could not identify
       a prior investigation through any CVS documentation in the file. We verified that CVS
       had no prior investigation for the applicant by having a PSSP team member research CVS
       during our field work. We concluded that a prior investigation for this applicant did not
       exist; therefore, reciprocity should not have been used. The PSSP team indicated that the
       cited prior investigation may have been for another applicant, but could not be certain.

      In 2012, the PSSP team indicated in a file that it identified a previous investigation
       through CVS and entered that information into CHRIS. However, that investigation did
       not have a favorable adjudication. We verified that CVS annotated the adjudication as
       "please call," which means the adjudication was not favorable or unfavorable, by having
       a PSSP team member research CVS during our field work. As a result of the “please
       call” notation, this applicant’s file should have been sent to OPM for investigation;
       however, this never occurred. PSSP should not have relied on the prior investigation
       since it was not indicated as “favorable,” a criterion allowing reciprocity. The PSSP team
       said this was an oversight either due to information from the prior investigation being
       entered into CHRIS incorrectly, or this file was overlooked.

Questioned Preliminary Clearance Decisions. We questioned the PSSP’s decisions to
preliminarily clear two staff:

      In a 2011 case, fingerprint results revealed a simple assault arrest and a second degree
       assault charge, which is a felony. At the time of the PSSP Team’s review, the applicant
       was on probation before judgment for the second degree assault charge. PSSP sent a
       Letter of Inquiry to the applicant on the simple assault arrest, but not the second degree
       assault charge. The PSSP team also did not refer that issue to the Legal Division to
       review. The applicant was cleared to work as an FDIC contractor. Minimum Standards
       of Fitness for Employment with the Federal Deposit Insurance Corporation (12 C.F.R.
       Part 336), prohibits any person from becoming employed or providing service to, or on
       behalf of, the FDIC who has been convicted of any felony. FDIC and PSSP policies and
       procedures do not mention probation before judgment situations. However, for a number
       of federal statutes and regulations, the term “conviction” is defined as a judgment or any
       other determination of guilt of a criminal offense by any court of competent jurisdiction,
       whether entered upon a verdict or plea, including any resolution that is the functional




                                               31
                                                                                                Appendix 3

                   Questioned or Unsupported
         Preliminary Clearance or Adjudication Decisions
         equivalent of a judgment, including a plea of nolo contendere, probation before
         judgment, or deferred prosecution.19 The PSSP team agreed that since the applicant was
         on probation, the applicant should not have been preliminarily cleared and a Letter of
         Inquiry should have inquired about both the simple assault arrest and the second degree
         assault charge. The applicant no longer works under contract for the FDIC.

        PSSP began a review in 2010 and did not complete adjudication for 2 years. Preliminary
         clearance and adjudication processes identified financial issues. The Legal Division
         approved the applicant through preliminary clearance even though the applicant had a
         history of financial difficulties, and also noted the applicant would be potentially filing
         for bankruptcy. After preliminary clearance, the applicant filed for Chapter 7 bankruptcy
         for an amount exceeding the FDIC’s statutory limit for debts owed to insured depository
         institutions. In light of these circumstances, we questioned the favorable preliminary
         clearance.

Unsupported Decisions. Our testing also identified four cases where files did not include
sufficient support for reciprocity, preliminary clearance, or adjudication decisions.

        PSSP used reciprocity to clear an applicant in 2013; however, FDIC Circular 1610.2
         requires previous approval must have been granted within the last 24 months and there
         must have been no break in employment in excess of 59 days. The applicant’s file did
         not document that the prior clearance met that criteria. The PSSP team advised us that
         they do not consider the 24-month requirement when evaluating a candidate for
         reciprocity, which is contrary to FDIC Circular 1610.2.

        A 2011 applicant’s file was missing fingerprint results, the Preliminary Background
         Investigation Checklist, and the Summary Sheet, so there was not enough information in
         the file to draw a favorable preliminary clearance conclusion.

        In 2011, PSSP requested a prior OPM review for an applicant but did not rely upon it for
         reciprocity. Therefore, the FDIC should have conducted its own adjudication; however,
         the PSSP team acknowledged adjudication was not performed, likely due to an oversight.
         No adjudication based on reciprocity information was entered into CHRIS. Therefore,
         based on our review, the adjudication decision was not present or unsupported.

        The file for an applicant contained no support for the late 2012 preliminary clearance or
         early 2013 adjudication determinations. The PSSP team indicated that the file was
         incomplete but was unable to locate additional support. Therefore, the preliminary
         clearance and adjudication was unsupported.

19
  See 8 U.S.C. §§ 1101; 42 U.S.C. 1320a-7; 5 C.F.R. § 919.925; 29 C.F.R. § 98.925; 29 C.F.R. § 1471.925;
41 C.F.R. § 105-68.925; and 48 C.F.R. 1409.403.



                                                      32
                                                                                           Appendix 4

                                          Glossary
       Term                                               Definition
Adjudication           The process of making suitability determinations and taking suitability actions
                       in cases involving positions subject to investigation.

Background             A background investigation (BI) seeks information about an applicant's
Investigation          employment, criminal, and personal history in an effort to investigate
                       behavioral reliability, integrity, and personal adjustment. Background
                       evaluations are conducted to determine whether there are any historical facts
                       that would interfere with an applicant's ability to perform the job, including
                       violations of statutes, regulations, or laws.

Bankruptcy             Legal procedure for liquidating a business that cannot fully pay its debts out of
                       its current assets, or property owned by an individual who cannot fully pay his
                       or her debts out of its current assets. Bankruptcy can be brought upon itself by
                       an insolvent debtor (called “voluntary bankruptcy”) or it can be forced on court
                       orders issued on creditors' petition (called “involuntary bankruptcy”). Two
                       major objectives of a bankruptcy are to provide: (1) fair settlement of the legal
                       claims of the creditors through an equitable distribution of the debtor's assets,
                       and (2) the debtor an opportunity for a fresh start. Bankruptcy amounts to a
                       business-failure, but voluntary winding up does not.

Central Verification   CVS, which OPM maintains, is the key system supporting government-wide
System (CVS)           reciprocity of security clearance and suitability vetting determinations for
                       federal employment, fitness for contractor employees, and eligibility for access
                       to classified information.

Certification Date     Date on which the Application for Public Trust Position was signed and
                       submitted.

Derogatory             Any information with a potentially negative impact on an applicant’s
Information            assessment for suitability. Typical examples include fraud, trust, patterns of
                       financial difficulty, and felonies.

Felony                 In general, felonies are descriptive of serious crimes, both violent or non-
                       violent in nature, which result in a punishment of fines, and in nearly all cases,
                       a prison sentence of at least one year.

Intelligence Reform    IRTPA, which is Public Law 108-458, addresses many different facets of
and Terrorism          information gathering and the intelligence community. IRTPA’s eight titles
Prevention Act of      reflect its broad scope.
2004 (IRTPA)

Letter of Inquiry      An inquiry sent on behalf of the FDIC to obtain additional information from an
                       applicant related to the individual’s background investigation.




                                                 33
                                                                                        Appendix 4

                                       Glossary
         Term                                         Definition
Minimum Standards   Outlined in 12 C.F.R. Part 336, Minimum Standards of Fitness for Employment
of Fitness          with the Federal Deposit Insurance Corporation prohibits any person from
                    becoming employed or providing service to, or on behalf of, the FDIC who has:

                           been convicted of any felony;
                           been removed from or prohibited from participating in the affairs of
                            any insured depository institution pursuant to any final enforcement
                            action by any appropriate federal banking agency;
                           demonstrated a pattern or practice of defalcation regarding obligations
                            to insured depository institutions; or
                           caused a substantial loss, in an amount in excess of $50,000, to federal
                            deposit insurance funds.

National Security   Positions that involve activities of the government that are concerned with the
Position            protection of the nation from foreign aggression or espionage and that require
                    regular use of, or access to, Classified National Security Information. See
                    FDIC Circular 1600.3 for further information on these types of positions.

Non-Statistical     All samples that do not have all the characteristics of statistical sampling,
Sample              which involve random sample selection and use of probability theory to
                    evaluate sample results. The results of non-statistical samples cannot be
                    projected to the intended population by standard statistical methods.

Novation Contract   Substitution of an original party to a contract with a new party, or substitution
                    of an original contract with a new contract. Upon substitution, the obligations
                    of the withdrawing-party are automatically discharged and no express-release is
                    required. To be effective, however, the substitution must be agreed-to by all
                    the original and new parties to the contract. Novation is never presumed; if the
                    novation agreement is not in writing, it must be established from the acts and
                    conduct of the parties. Novation is not the same as assignment of an agreement
                    where no new agreement is needed and the rights and duties are transferred
                    from the assignor to the assignee.

Performance-Based   An acquisition structured around the results to be achieved, as opposed to the
Acquisition (PBA)   manner in which the work is to be performed. PBA methods give prospective
                    contractors an opportunity to propose: (1) services and solutions that achieve
                    the overall objective and (2) the methods for evaluating the progress of the
                    work and the end product/results/deliverables.

Performance-Based   A documented, systematic approach to acquisition management. Like
Management (PBM)    traditional project management, PBM involves planning and defining (Planning
                    Phase), implementing and assessing (Measure and Monitor Phase), and
                    changing (Evaluate and Adjust Phase). These disciplines are not sequential but
                    come into play throughout the pre-award and post-award phases of the
                    acquisition cycle. Unlike traditional project management, PBM applies these
                    disciplines in a holistic way to facilitate project success.




                                              34
                                                                                            Appendix 4

                                            Glossary
        Term                                                 Definition
Personnel                Worksheet completed prior to the adjudication determination to document all
Investigation            relevant factors of the investigation. Used as support for the final adjudication
Summary                  determination and FDIC approval.

Personnel Security       FDIC program to ensure that the Corporation employs and retains in
and Suitability          employment only those persons who meet all Federal requirements for
Program (PSSP)           suitability (i.e., character, reputation, honesty, integrity, trustworthiness) and
                         whose employment or conduct would not jeopardize the accomplishment of the
                         Corporation’s duties or responsibilities.

Policies and             A set of principles, rules, and guidelines formulated or adopted by an
Procedures Manual        organization to reach its long-term goals and typically published in a booklet or
                         other form that is widely accessible. Policies and procedures are designed to
                         influence and determine all major decisions and actions, and all activities take
                         place within the boundaries set by them. Procedures are the specific methods
                         employed to express policies in action in day-to-day operations of the
                         organization. Together, policies and procedures ensure that a point of view
                         held by the governing body of an organization is translated into steps that result
                         in an outcome compatible with that view.

Position Designation OPM developed the Position Designation System to guide agencies in
System               determining the proper level of investigation and screening required based on
                     an assessment of risk and national security sensitivity. Position designation is
                     established by 5 C.F.R. 731.106, section 3 of E.O. 10450, as amended, and 5
                     C.F.R. 732.201.
Preliminary          Worksheet completed prior to the preliminary clearance determination to
Background Checklist document all relevant factors of the investigation used as support for final
                     preliminary clearance determination and approval.

Preliminary              A preliminary assessment performed by the PSSP team to ensure applicants
Clearance                meet minimum integrity and fitness standards as set forth by the FDIC. These
                         may include checks of Federal Bureau of Investigation (FBI) fingerprint
                         criminal records, review of personnel security questionnaires, credit reports
                         provided by the three major credit reporting agencies, and other internal FDIC
                         resources.

Probation Before         Probation before judgment is a term used in some states for a deferred
Judgment                 adjudication, used by some states in sentencing certain first offenders. Laws
                         governing probation before judgment are governed by state laws, which vary
                         by state. The term and conditions of the probationary period are at the
                         discretion of the judge. In some states, if the term of probation is successfully
                         completed and there are no further violations, a sentence of not guilty will be
                         imposed. Whether a probation before judgment counts as a conviction or is
                         eligible for expungement varies by jurisdiction. However, for a number of
                         federal statutes and regulations, probation before judgment is included in the
                         meaning of the term “conviction.”




                                                   35
                                                                                            Appendix 4

                                           Glossary
       Term                                                Definition
Reciprocity             This is a process in which the applicant is granted full clearance if he or she has
                        already been the subject of a favorable investigation by another agency and that
                        such investigation was within acceptable timing and risk parameters.

Sensitive Information   Privileged or proprietary information which, if compromised through alteration,
                        corruption, loss, misuse, or unauthorized disclosure, could cause serious harm
                        to the organization owning it. Also called sensitive asset.

Summary Sheet           Worksheet attached to all paper files that outlines investigation milestones and
                        signoffs.




                                                  36
                                                                                  Appendix 5

                        Acronyms and Abbreviations
 Acronym/Abbreviation                                    Explanation
79A                      Report of Agency Adjudicative Action on OPM Personnel Investigations
ANACI                    Access National Agency Check and Inquiries
APM                      Acquisition Policy Manual
BDI                      Update of Previous BI Completed
BI                       Background Investigation
BIRT                     Background Investigation Review Tracking
C.F.R.                   Code of Federal Regulations
CHRIS                    Corporate Human Resources Information System
CO                       Contracting Officer
CSB                      Corporate Services Branch
CVS                      Central Verification System
DOA                      Division of Administration
DRR                      Division of Resolutions and Receiverships
E.O.                     Executive Order
e-QIP                    Electronic Questionnaires for Investigation Processing
FDIC                     Federal Deposit Insurance Corporation
IRTPA                    Intelligence Reform and Terrorism Prevention Action
LBI                      Limited Background Investigation
LDI                      Update of Previous LBI Completed
MBI                      Moderate Background Investigation
MSB                      Management Services Branch
NAC                      National Agency Check
NACI                     National Agency Check and Inquiries
NACIC                    National Agency and Inquiries with Credit Check
NACLC                    National Agency Check with Law and Credit
OIG                      Office of Inspector General
OM                       Oversight Manager
OPM                      Office of Personnel Management
OPM-FIS                  Office of Personnel Management Federal Investigative Services
PBA                      Performance-Based Acquisition
PBM                      Performance-Based Management
PII                      Personally Identifiable Information
PRI                      Periodic Reinvestigation
PRIR                     Periodic Reinvestigation and Residence Coverage
PSA                      Personnel Security Action
PSSP                     Personnel Security and Suitability Program
PSSP Team                SEPS employees and PSSP support contractor staff
RSI                      Reimbursable Security/Suitability Investigation
SAC                      Special Agreement Check
SEPS                     Security and Emergency Preparedness Section
SGI36                    Upgrade to SSBI from BI completed: 0 to 36 Months
SGI60                    Upgrade to SSBI from BI completed: 37 to 60 Months
SOW                      Statement of Work
SSBI                     Single Scope Background Investigation
SSBI-PR                  Single Scope Background Investigation Periodic Reinvestigation
TM                       Technical Monitor
U.S.C.                   United States Code

                                             37
                       Appendix 6

Corporation Comments




         38
                       Appendix 6

Corporation Comments




         39
                       Appendix 6

Corporation Comments




         40
                       Appendix 6

Corporation Comments




         41
                       Appendix 6

Corporation Comments




         42
                       Appendix 6

Corporation Comments




         43
                       Appendix 6

Corporation Comments




         44
                       Appendix 6

Corporation Comments




         45
                                                                                            Appendix 7

       Summary of the Corporation’s Corrective Actions

This table presents corrective actions taken or planned by the Corporation in response to the
recommendations in the report and the status of the recommendations as of the date of report
issuance.

                                                            Expected
 Rec.                                                                   Monetary   Resolved:a   Open or
          Corrective Action: Taken or Planned              Completion
Number                                                                  Benefits   Yes or No    Closedb
                                                              Date
   1      SEPS will include the appropriate                12/31/2014      $0         Yes        Open
          clarification and will outline associated
          procedures in Standard Operating
          Procedures for PSSP federal and
          contractor employees.
   2      Standard operating procedures for                12/31/2014      $0         Yes        Open
          SEPS employees will be developed.
   3      DOA’s Management Services Branch                 6/30/2015       $0         Yes        Open
          (MSB) will evaluate the issues raised in
          the OIG’s report and follow up on
          corrective actions and SEPS’ progress
          as part of the Division’s annual internal
          review and risk management program.
          The first MSB review will be
          completed by the end of the 2nd quarter
          2015.
   4      The Contracting Officer and Oversight            12/31/2014      $0         Yes        Open
          Manager will refine the existing SOW
          to include a clear list of deliverables,
          the key milestones in the background
          investigations process based upon
          updated PSSP policies and procedures,
          and other requirements not clearly
          defined to date. The Contracting
          Officer will negotiate these changes
          with the contractor and issue a
          modification to incorporate the revised
          SOW.




                                                      46
                                                                                          Appendix 7

      Summary of the Corporation’s Corrective Actions
                                                          Expected
 Rec.                                                                 Monetary   Resolved:a   Open or
         Corrective Action: Taken or Planned             Completion
Number                                                                Benefits   Yes or No    Closedb
                                                            Date
  5      Upon completion of the corrective               6/30/2015       $0         Yes        Open
         action under recommendation 4, DOA
         will be able to periodically assess and
         document contractor performance
         against the newly defined deliverables,
         process milestones, and performance
         criteria. In order to assess performance
         on a more regular basis during the
         initial year of the refined SOW, the CO
         and OM will initiate interim quarterly
         performance evaluations.
  6      PERSEREC will include supervisory               12/31/2014      $0         Yes        Open
         review controls to help ensure that all
         required documents are included in
         digitized case files. MSB may also
         verify as part of periodic internal
         reviews that sampled files are complete.
         SEPS also noted that completion of the
         PERSEREC records digitization project
         will enhance documentation back-up
         and system access controls.
  7      SEPS reiterated existing physical               12/31/2014      $0         Yes        Open
         security controls and implemented a
         clean-desk policy. SEPS also noted that
         completion of the records digitization
         project will provide added protection to
         sensitive records.
  8      The PERSEREC solution that DIT                  6/27/2014       $0         Yes       Closed
         delivered into production in June 2014
         provides automated reports that will
         allow DOA SEPS to retire the current
         BIRT system as well as provide reports
         necessary to manage the SEPS
         background investigation program.
         SEPS also coordinated with OPM to
         obtain various reports important to
         OPM case processing metrics.
  9      DIT completed the “to be” background            6/27/2014       $0         Yes       Closed
         investigation process for automation
         and document storage associated with
         the release of PERSEREC to
         production.




                                                    47
                                                                                                      Appendix 7

          Summary of the Corporation’s Corrective Actions
                                                               Expected
 Rec.                                                                        Monetary      Resolved:a      Open or
              Corrective Action: Taken or Planned             Completion
Number                                                                       Benefits      Yes or No       Closedb
                                                                 Date
     10       SEPS provided a PERSEREC                        6/27/2014          $0             Yes         Closed
              Requirements Specification document
              and a more detailed PERSEREC
              Documentum Design document that
              addresses case processing work flow
              controls. DIT released PERSEREC
              into production in June 2014.
a
    Resolved – (1) Management concurs with the recommendation, and the planned, ongoing, and completed
                    corrective action is consistent with the recommendation.
               (2) Management does not concur with the recommendation, but alternative action meets the
                   Intent of the recommendation.
               (3) Management agrees to the OIG monetary benefits, or a different amount, or no ($0)
                   amount. Monetary benefits are considered resolved as long as management provides an
                   amount.
b
 Recommendations will be closed when (a) Corporate Management Control notifies the OIG that corrective actions
are complete or (b) in the case of recommendations that the OIG determines to be particularly significant, when the
OIG confirms that corrective actions have been completed and are responsive.




                                                         48
